                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 12-01344-243



                Healthcare Inspection 


   Alleged Inadequate Oversight at a 

    Contracted Homeless Program 

  VA New Jersey Health Care System 

       East Orange, New Jersey 





July 16, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
        Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to complaints about inadequate oversight of a contracted
homeless program by the VA New Jersey Health Care System (facility), East Orange,
NJ. The complainant alleged that Community Hope, Inc. (CH agency) and the Veterans
in Early Transitions Services (VETS) Program:

   	 Contributed to the death of a veteran because of a case manager’s negligence
      and lack of supervision
   	 Lacked supportive services promised to stabilize veterans
   	 Made inappropriate referrals for revenue generation based on payment earned
      for veteran-occupied beds
   	 Provided inadequate breakfasts for their patients
   	 Mismanaged medication causing some homeless veterans to overdose
   	 Violated CH agency policy by inappropriately discharging patients, for reasons
      which included positive substance abuse screening, rendering them homeless
      Employed non-experienced staff for the population being served and employed a
       leader who did not have the education and experience required by the VA
       housing contract
VETS Program provides emergency transitional housing for substance abuse and
mentally ill homeless patients in the community. While we did not substantiate the
complainant’s allegations, we found that following the two patients’ deaths, the facility
initiated a collaborative root cause analysis (RCA) with the CH agency. We concurred
with the RCA team’s findings, recommendations, and actions taken. We found that the
CH agency and facility staff made improvements to the VETS Program referral and
admission process, patient supervision, monitoring, and safety. Furthermore, our
interviews with VETS Program patients showed that they all had positive comments
about their experience in the program.

Therefore, we make no recommendations and consider this issue closed.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with the
report. No further action is required.




                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for
                                                           Healthcare Inspections


VA Office of Inspector General                                                                  i
         Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ




                                                Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations made by a complainant regarding a
contracted community-housing partner of the VA New Jersey Health Care System
(facility). The allegations involve concerns related to the deaths of two homeless
veterans living at the Veterans in Early Transition Services (VETS) Program operated
by the contractor, Community Hope, Inc. (CH agency).

                                            Background 

VA New Jersey Health Care System

The system is part of the Veterans Integrated Service Network (VISN) 3 and has two
campuses, located in East Orange and Lyons, NJ. The East Orange campus has a
381-bed tertiary care center that provides comprehensive health care through inpatient
and outpatient services in medicine, surgery, mental health (MH), substance abuse (SA)
and homeless services. The Lyons campus provides a 300-bed community living
center, 85-bed domiciliary, and a 101-bed MH Residential Rehabilitation Treatment
Program (RRTP).1 The facility has 10 community based outpatient clinics located
throughout NJ and holds affiliations with the New Jersey Medical School and the Robert
Wood Johnson School of Medicine.

Community Hope
The CH agency, a nonprofit organization founded in 1985, provides residential
programs for veterans and non-veterans in recovery from mental illness and SA
addiction. In 2004, Grant and Per Diem (GPD)2 funding was awarded to the CH agency
to establish and facilitate the Hope for Veterans Program on the Lyons campus. This is
a long-term (up to 24 months) 95-bed transitional housing program for homeless
veterans to start on the path to rebuild their lives.3 In July 2011, the CH agency
received a Health Care for Homeless Veterans (HCHV) contract to implement the VETS
Program, a short-term (up to 90 days) residential program for homeless veterans. The
12-bed VETS Program provides crisis stabilization and safe housing in a Young Men's
Christian Association (YMCA) building located in downtown Newark, NJ. The goal of



1
  RRTPs are designed to provide comprehensive treatment and rehabilitative services meant to improve the quality
of life and diminish reliance upon more resource-intensive forms of treatment. In all cases, the residential
component emphasizes incorporation of clinical treatment gains into a lifestyle of self-care and personal
responsibility.
2
  The purpose of the GPD Program is to promote the development and provision of supportive housing and/or
supportive services by community agencies, with the goal of helping homeless veterans achieve residential stability,
increase their skill levels and/or income, and obtain greater self-determination. Source:
http://www.va.gov/homeless/gpd.asp, accessed March 24, 2013.
3
  http://www.communityhope-nj.org/veterans-programs-hope-for-veterans.php, accessed March 20, 2013


VA Office of Inspector General                                                                                    1
           Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ


the VETS Program is to work with the veterans to stabilize their situation and move to
longer-term transitional or permanent housing within 90 days.4

                                Scope and Methodology 

We conducted a site visit April 17-19, 2012, and interviewed relevant facility and CH
agency managers and staff knowledgeable of the issues raised by the complainant.

We conducted a second site visit February 11-13, 2013, and reviewed the
implementation of actions taken following a status report and root cause analysis (RCA)
conducted jointly by the facility and the CH agency.

We reviewed Veterans Health Administration’s (VHA’s) draft Health Care for Homeless
Veterans (HCHV) Program Handbook, and facility and agency policies. We reviewed
the subject patients’ electronic health records (EHRs) and autopsies; RCAs, patient
incident, patient advocacy, safety, and staffing reports; issue briefs; and homeless
program committee minutes.

We also reviewed the facility’s contract with the CH agency, the Statement of Work
(SOW), training records, and the facility’s latest inspection of the VETS Program. In
addition, we reviewed the CH agency’s meal menus, transportation logs, and
performance monitors.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.

                                       Case Summaries 

The two patients mentioned in this report were homeless veterans in need of SA
rehabilitation and MH treatment. Due to their homeless status upon discharge from the
facility, they were referred to the VETS Program for stabilization and housing.

Patient 1 was a man in his twenties whose medical history included SA and psychiatric
treatment. He enrolled with the facility in January 2010 seeking psychiatric treatment.
Over the next year, the patient participated in various RRTPs. During this period, the
patient alternated his care between New Jersey and Florida.

Following his return to New Jersey, the patient was admitted to the facility MH unit.
However, over the next 3 weeks, his symptoms improved and he was discharged to the
VETS Program in early December.

On the morning of VETS Program Day 5, the patient was found unresponsive, slumped
over his desk. Police and OIG agents conducted an investigation and found no


4
    http://www.communityhope-nj.org/veterans-programs.php, accessed March 20, 2013


VA Office of Inspector General                                                                    2
           Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ


evidence of suicide or drug paraphernalia in his room. However, state officials later
determined that the patient’s death was due to a drug overdose.

Patient 2 was a man with a history of SA, MH issues (depression and PTSD), and
chronic musculoskeletal pain. The patient came to the facility emergency department in
2011 seeking assistance with his depression, PTSD symptoms, and pain management.
Following a seven week inpatient MH unit stay, he transferred to the psychiatric RRTP
program. In late September, he transferred from the MH RRTP to the PTSD RRTP, and
was discharged to the GPD program in November.

The patient repeatedly missed his outpatient Psychosocial Recovery Rehabilitation
group sessions scheduled in conjunction with his PTSD treatment. In late February
2012, the GPD staff checked on the patient and found he had disorientation, trouble
breathing, and difficulty getting up. The GPD staff completed a pill count on that same
day and found that 26 oxycodone pills were missing. When asked about the missing
pills, the patient reported that he “threw away the medications because he did not like
them,” and denied any suicidal ideation. The patient went to a local hospital where he
was treated and one week later, he transferred to the facility’s inpatient MH unit. During
his hospital stay, the patient was taking acetaminophen/oxycodone.5 In late April, the
patient weaned off this medication, but continued to complain of pain until his discharge
one week later. According to a June facility note, the patient tested positive for opiates
and admitted to using heroin. The VETS Program staff placed the patient on stricter
curfew and restricted him from leaving the building unsupervised for 2 weeks, except to
attend treatment activities. The next day, a VETS Program staff member found the
patient unresponsive in his room. As with the previous case, the police found no
evidence of suspicious activity, drug paraphernalia, or suicide note. The coroner’s
report determined the cause and manner of death to be accidental heroin intoxication.

VETS Program Improvement and Recommendations

Facility and agency review of the patients’ deaths: Following the second death, in
August 2012, facility and CH agency staff met as a committee to review the VETS
Program, identify areas for improvement, and make recommendations to prevent a
similar event from occurring. The committee submitted status update reports to facility
leadership in August, October, and December. A status report showed that, “The fact
that the VETS Program is located in an urban setting where drugs are presumed to be
prevalent and available increases the likelihood of use and possible death from drug
overdose.” The following is the committee’s list of “lessons learned” as well as changes
implemented to improve the VETS Program operations.

          VETS Program:
           o Installed alarms on the stairwell doors, limiting access between floors
           o Increased roster checks to every shift change


5
    Acetaminophen/Oxycodone is a combination medication used to relieve moderate to severe pain.


VA Office of Inspector General                                                                     3
        Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ


       o	 Revised admission evaluation to include an initial written plan for services
          completed at admission to the program
       o	 Relocated the staff workstation to the main area on the unit
   	 The facility’s liaison would have a dedicated facsimile machine and review
      changes to each resident’s EHR on a daily basis
   	 CH agency and facility jointly agreed to:
       o	 Require that a facility psychiatrist evaluate any VETS Program-referred
          patient who has made a suicide attempt in the last 90 days
       o	 Share positive toxicology screening results
       o	 Enforce existing program policy requiring that all patients who acknowledge
          or test positive for SA must be actively involved in some form of SA treatment
          in order to remain in the program
       o	 Ask all patients who test positive for SA where they obtained the alcohol or
          drugs and report this information to the YMCA, Newark police, and other
          community leaders
       o	 Have facility staff provide training to the VETS Program staff regarding subtle
          signs and symptoms of drug use to increase early detection and initiation of
          treatment
RCA: In addition, the facility and the CH agency conducted a joint RCA to review the
processes of referral and admission to the VETS Program. The RCA was initiated in
August and submitted to the facility director in September 2012. The RCA team
identified and developed action items to address the root cause.

                                 Inspection Results 

Issue 1: Alleged program negligence and lack of supervision resulting in veteran
death

While we did not substantiate the allegation that the patients’ deaths were due to
program negligence or lack of supervision, we found that through collaborative review,
the CH agency and facility identified numerous ways to improve supervision and
monitoring of all patients.

The VETS Program is located on the third floor of the YMCA building in downtown
Newark, NJ. As previously noted, the location of the VETS Program in an urban setting
with a presumed prevalent and available drug culture increases the challenges of
remaining clean and sober for patients with a SA history.

Before the patients’ deaths, the VETS Program had policies and practices in place,
including conducting unit rounds, random urine drug screening, and requiring veterans
to be active in VA programs (SA or day treatment). VETS Program staff conducted
random room searches, including when a patient tested positive for drugs or alcohol.
All patients were randomly drug tested two or three times each week at the VETS


VA Office of Inspector General                                                                 4
        Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ


Program and daily at the facility if they attended SA treatment programs. After
14-consecutive days of negative drug testing, patients are eligible for 24-hour passes;
however, they are drug tested upon returning to the VETS program.

VETS Program implemented several changes to improve monitoring and supervision of
residents when on the unit, as follows.

   	 There is an increase in staff visibility and surveillance of the living spaces with
      new policies for:
           o	 Relocation of night staff to the common area allowing views of both
              hallways and the elevator doors
           o	 Staff to have direct contact with patients at every shift change
           o	 Staff to conduct hourly rounds of the program-area and room-checks at
              every shift change
   	 Patients are required to sign the logbook every time they leave or enter the VETS
      program unit.
   	 There is a mandatory 10:00 p.m. curfew for all patients.
   	 Alarms were installed on all stairwell doors and everyone must use the elevator
       to go between floors.

Issue 2: Lack of Supportive Services

We did not substantiate the allegation that there was a lack of supportive services
promised to stabilize patients at the VETS Program.

The HCHV contract requires that the VETS Program provide patients with therapeutic,
rehabilitative, and recovery services based on the needs of the patients throughout their
stay in the program. The patient must develop and complete a treatment plan at
admission with assistance from the VETS Program staff and the facility liaison. The
VETS Program offers the following required services: structured group activities;
collaboration with the facility staff; individual counseling; assistance to develop
responsible living patterns; support for a drug-free lifestyle; assistance to gain and apply
knowledge of the illness/recovery process; and the ability to respond to a patient in
crisis. Patient status reports are due to the facility every month.

Patients attend bi-weekly community meetings held with the VETS Program staff and
the facility liaison in addition to regular meetings with their case managers. The case
manager provides assistance and education about benefits, entitlements, social skills,
job seeking/development, treatment planning, advocacy, recovery process, family
meetings, individual and group counseling, and discharge planning. Staff is available
24 hours a day, 7 days a week.

The VETS Program also provides patients with meals, clothing, toiletries, transportation,
and laundry money as requested. They also have access to all services and activities



VA Office of Inspector General                                                                 5
          Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ


offered through the YMCA, including use of the pool and gymnasium. VETS Program
requires the patients to be actively engaged in SA or day treatment available at the
facility. They provide transportation to social outings, appointments, and community
support group meetings in the evenings and weekends. Additionally, they sponsor
monthly community activities for the patients. VETS Program staff conduct an exit
survey with veterans when discharging them from the program. The 2012 survey result
showed that patients were satisfied overall with the care and services provided to them
by the VETS Program.

Issue 3: Inappropriate Referrals

We did not substantiate the allegation that there were inappropriate referrals to boost
revenue generation based on payment earned for veteran-occupied beds; however,
through collaborative efforts and training between the facility and CH agency, the
admission process was strengthened.

VETS Program eligibility criteria include: honorable discharge from military service,
serious MH diagnosis, and/or SA disorder, medical and psychiatric stability, and
homelessness.6 Patients must also be independent with their activities of daily living.7
The VETS Program provides rapid, safe, transitional housing and the treatment plan
determines the length of stay in the program with a limit of 90 days.

Following the two patients’ deaths, the facility, and VETS Program staff modified the
admission process to include a facility psychiatrist evaluation of patients with a primary
MH diagnosis, not just those patients with suicidal ideation, and distributing guidance
regarding medical and psychiatric clearance to facility providers. In addition, the VETS
program coordinator reviews and assesses each admission.

Subsequent to the deaths, the facility inpatient staff received training regarding the
admission and exclusionary criteria for the VETS Program as well as other residential
programs. The facility inpatient staff was also educated on the new practice regarding
changes to medication regimen issues. The new practice states that if an inpatient’s
medication regimen changes prior to discharge to a residential program, initiation and
monitoring of the modification to the regimen for effectiveness should occur prior to
discharge.

Issue 4: Inadequate Breakfasts

We did not substantiate the allegations that the VETS Program does not provide
homeless patients with adequate breakfasts.

The HCHV contract requires that patients receive three healthy meals each day.
Although the VETS Program does not have a cooking facility on site, there is a

6
  Homelessness as defined by The McKinney-Vento Homeless Assistance Act as amended by S. 896 The Homeless 

Emergency Assistance and Rapid Transition to Housing (HEARTH) Act of 2009. 

7
  Activities of daily living is a term used in healthcare to refer to daily self-care activities. It is a measurement of a

person’s functional status. 



VA Office of Inspector General                                                                                          6
         Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ


refrigerator, coffee maker, and microwave for patient use. The VETS Program manager
does the weekly grocery shopping and makes adjustments to meet the dietary needs
and preferences of the patients. Meals are as follows:

	 Breakfast, served from 5:30 a.m.–8:30 a.m., consists of a continental breakfast8
	 Lunch, served from 12:00 p.m.–2:00 p.m., consists of sandwiches; however,
   because most patients attend treatment programs at the facility during this time they
   eat lunch there
	 Dinner, served from 5:00 p.m.–7:00 p.m., consists of hot meals prepared off-site by
   a caterer or local soup kitchen and delivered to the VETS program
	 Snacks are available upon request
The facility annually inspects the VETS Program for compliance regarding
management, safety, clinical care, nutrition and food services, and security. The facility
did not identify any deficiencies with the VETS Program nutrition and food services
during their last annual review.

Issue 5: Medication Monitors and Security

We did not substantiate the allegation that medication was mismanaged causing
homeless patients to overdose.

The facility liaison and the VETS Program manager collaborate to confirm each
patient’s active medications. Patients are required to surrender all medications at the
time of admission and in the event of a medication change. The VETS Program staff
secure all medications under a double locked system within the staff office. Although
the VETS Program staff do not administer medications, they monitor and document
when each patient takes a medication. VETS Program staff also maintain a logbook
with all medications and the patient and staff person must both sign off when
medications are taken.

We reviewed a VETS Program patient’s case in which the patient filled his morphine9
prescription before leaving the facility. Later in the day and prior to returning to the
VETS Program, the patient took four pills. When he returned to the VETS Program, the
staff appropriately conducted a routine pill count and noticed the missing pills from his
bottle. After notifying the program manager and the facility liaison, they discussed the
finding and reinforced the rules with the patient. There has been no further incident
noted since with other patients.




8
  Continental breakfast consists of a light meal including coffee, tea, or juice, cereal, and bread or other baked

goods. 

9
  Morphine is a potent opiate analgesic drug used to relieve severe pain. 



VA Office of Inspector General                                                                                  7
        Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ


Issue 6: Inappropriate Discharges

While we did not substantiate the allegation that patients were inappropriately
discharged, we did identify a patient who was discharged from the VETS program
without secure housing, due to his disruptive behavior.

VETS Program provides all patients a copy of the Discharge and Termination
Acknowledgement Form upon admission. Patients sign and the CH agency maintains a
copy of this form in their records. The form lists multiple reasons for patient discharge
from the VETS Program, including successful completion, maximum length of stay,
inappropriate behavior, and verified SA relapse and refusal to submit to drug testing.

During the course of our inspection, we reviewed the case of one VETS Program
patient who was discharged without secure housing. This patient was admitted to the
VETS Program with the goal of admission to the CH agency’s GPD program located on
the Lyons Campus of the facility. The patient maintained 90 days of sobriety, as
required for consideration into the GPD program. However, during his participation in
the VETS Program, he reportedly displayed a bad attitude, bullied other patients, had
verbal altercations, and disrespected staff. The patient was also verbally aggressive,
demeaning, and threatening during facility group treatment sessions. The GPD
program and the domiciliary denied his admission because of inappropriate behavior,
but the VETS Program staff continued to work with him to try to secure suitable housing.
However, his aggressive, threatening, and violent behavior became unmanageable
leading the VETS Program staff, with the assistance of YMCA security and Newark
police, to discharge the patient.

Issue 7: Inexperienced Staff

We did not substantiate the allegations that inexperienced staff were working with this
population or that the staff serving in a leadership position did not have the education
and experience required by the HCHV contract.

The HCHV contract states, “The Contractor shall assign to this contract personnel that
by education and training (and, when required, certification or licensure) are qualified to
provide services in accordance with SOW”. The CH agency requires that their Director
of Veteran Services and the VETS Program Manager both have Master’s Degrees, hold
a valid professional state of New Jersey license, and have experience working with SA
and mental illness. VETS Program case managers are required to have a Bachelor’s
Degree in Social Work, Psychology, or a related field; hold a valid professional state of
New Jersey license; and have knowledge and experience working with SA and mental
illness. The Behavioral Health Counselor may have a Bachelor’s Degree in a MH
related field, be a licensed RN, hold a 2-year degree with 2 years of experience, or have
a High School Diploma with 4 years of experience. At the time of our site visit, the
VETS Program staff met the requirements of their position descriptions.




VA Office of Inspector General                                                                 8
         Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ


The CH agency requires the VETS Program staff complete training on SA recognition,
overdose prevention, and Operation S.A.V.E.10 We found that the VETS Program staff
met the requirements set forth in the position descriptions and were compliant with the
required trainings.

                                          Conclusions 

VETS Program provides emergency transitional housing for SA and mentally ill
homeless patients in the community. While we did not substantiate the complainant’s
allegations, we found that following the two patients’ deaths, the facility initiated a
collaborative RCA with the CH agency and appropriate actions were taken.

We found that the CH agency and facility staff made improvements to the VETS
Program referral and admission process, patient supervision, monitoring, and safety.

Furthermore, our interviews with VETS Program patients present on the unit during our
site visit showed that they had positive comments about their experience in the
program.

We made no recommendations.




10
  Operation S.A.V.E. is a guide on how to act with care and compassion if you encounter a suicidal person. Signs
of suicidal thinking. Ask questions. Validate the person’s experience. Encourage treatment and Expedite getting
help.


VA Office of Inspector General                                                                                9
        Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ
                                                                                     Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


   Date:       May 22, 2013

   From:       Director, VA NY/NJ Veterans Healthcare Network (10N3)

   Subject: Healthcare Inspection – Alleged Inadequate Oversight at a
            Contracted Homeless Program, VA New Jersey Health Care
            System, East Orange, NJ

       To:     Director, Baltimore Office of Healthcare Inspections (54BA)

               Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)



               I have reviewed the OIG Office of Healthcare Inspections report
               titled above and concur with its findings. Please contact Pam
               Wright, RN MSN, VISN QMO if you require any further information.




               Michael A. Sabo, FACHE

               Network Director




VA Office of Inspector General                                                                10
        Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ
                                                                                     Appendix B
                         System Director Comments


               Department of
               Veterans Affairs                                  Memorandum


   Date:       May 20, 2013

   From:       Director, VA New Jersey Health Care System (561/00)

   Subject: Healthcare Inspection – Alleged Inadequate Oversight at a
            Contracted Homeless Program, VA New Jersey Health Care
            System, East Orange, NJ

       To:     Director, VA NY/NJ Veterans Healthcare Network (10N3)



               We have reviewed the OIG Office of Healthcare Inspections report
               titled above and concur with its findings. We thank the OIG for their
               thorough review and acknowledgement of the activities undertaken
               by the VANJHCS to insure quality of care to homeless Veterans.




               KENNETH H. MIZRACH 

               Facility Director 





VA Office of Inspector General                                                                11
        Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ
                                                                                     Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Joanne Wasko, LCSW, Team Leader
                         Lisa Barnes, MSW
                         Terri Julian, Ph.D.
                         Frank M. Miller, Ph.D.
                         Nelson Miranda, LCSW
                         Melanie Oppat, Med. LDN
                         Michael Shepherd, MD, Physician Consultant
                         Jenny Walenta, Office of Investigations




VA Office of Inspector General                                                                12
        Alleged Inadequate Oversight at a Contracted Homeless Program, VA NJ HCS, East Orange, NJ
                                                                                     Appendix D



                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, NY/NJ Healthcare Network (10N3)
Director, VA New Jersey Health Care System (561/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert Menendez
U.S. House of Representatives: Rodney Frelinghuysen, Scott Garrett, 	Leonard Lance,
 Frank Pallone Jr., Bill Pascrell Jr., Donald M. Payne, Jr., Jon Runyan, Albio Sires,
 Christopher Smith



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                13
